AMERICAN CHEMICAL SOCIETY
      Washington, D.C.



  Financial and Compliance Audit
                 of
           Indirect Costs
       For the Years Ended
   December 31, 2000 and 2001




                           M.D. Oppenheim & Company, P.C.
                                  Certified Public Accountants
                              8403 Colesville Road, Suite 340
                          Silver Spring, Maryland 20910-3367
                           AMERICAN CHEMICAL SOCIETY

                                  TABLE OF CONTENTS

                                                                                 Page
Acronyms                                                                            1

Section I – Introductions and Audit Results:                                        2
   Background                                                                       3
   Objectives and Scope of Audit                                                    3
   Summary of Audit Results                                                         5
   Exit Conference                                                                  8

Section II – Findings and Recommendations                                           9
   Independent Auditors’ Report on Compliance and Internal Control                 10
   Findings and Recommendations on Compliance                                      12
   Finding and Recommendation on Internal Control                                  16

Section III – Financial Schedules                                                  19
   Independent Auditors’ Report                                                    20
   Financial Schedules:
     Schedule A – Schedule of Over/(Under) Recovered Indirect Costs on
                    National Science Foundation Awards                             22
     Schedule B-1 and B-2 – Schedule of Indirect Cost Calculations                 23
     Schedule C, C-1 and C-2 – Schedule of Auditors’ Adjustments and
                                  Eliminations                                     27
     Notes to Financial Schedules                                                  30

Section IV – Supplementary Information                                             31
   Independent Auditors’ Report on Supplementary Information                       32
   Schedule D-1 to D-3 – Detailed Schedules of Over/(Under) Recovered Indirect
                          Costs by NSF Award                                       33
   Schedule E – Listing of NSF Awards Active During Audit Period Not Affected
                 by Indirect Cost Audit                                            36

Section V – Awardee’s Response                                                     37
                    AMERICAN CHEMICAL SOCIETY

                                 Acronyms


Acronym   Explanation of Acronym

 ACS      American Chemical Society

AICPA     American Institute of Certified Public Accountants

 BOD      Board of Directors

 CAS      Chemical Abstracts Service

 CMP      Central Management Pool

 DAE      Division Administrative Expenses

 DGA      Division of Grants and Agreements

 DIAS     Division of Institution and Award Support

 FCTR     Federal Cash Transactions Report

MTDC      Modified Total Direct Costs

 NSF      National Science Foundation

 OIG      Office of Inspector General

 OMB      Office of Management and Budget

 PAR      Personal Activity Report

 WMP      Washington Management Pool




                                                               1
          SECTION I

INTRODUCTION AND AUDIT RESULTS




                                 2
                                   SECTION I -
                         INTRODUCTION AND AUDIT RESULTS

                                              BACKGROUND

        The American Chemical Society (ACS) is a not-for-profit, tax-exempt organization
established with the objective of encouraging the advancement of chemistry; promoting
research in chemical science and industry; increasing and diffusing chemical knowledge; and
promoting scientific interests and inquiry through its meetings, reports, papers, and
publications.

       ACS receives approximately $331 million of annual revenues, mainly from
advertising, membership dues, registration fees, and electronic and printed services.1 Of the
$331 million in annual revenues, federal financial assistance approximates $797,000. The
National Science Foundation (NSF) is the cognizant federal audit agency for ACS’s indirect
cost rates and provided approximately 50 percent of the federal financial assistance to ACS
during the two-year period of our audit.

                               OBJECTIVES AND SCOPE OF AUDIT

At the request of the NSF, M. D. Oppenheim & Company, P.C. conducted a financial and
compliance audit of the indirect cost proposals prepared by ACS for the years ended
December 31, 2000 and 2001 to determine final indirect cost rates for those years. During the
audit period, there was one active NSF award ($1.1 million awarded) with indirect costs
included in the award budget utilizing a maximum provisional rate.2 At the time this award
was made, NSF had negotiated with ACS a 42 percent maximum provisional rate. However,
the award letter further limited indirect costs to a proposed budgeted rate of 12.84 percent.
ACS incurred $303,625 on this award during the two-year period ended December 31, 2001,
$23,954 of which was claimed indirect costs. Our audit objectives were: (1) to determine
whether ACS complied with federal requirements in computing its indirect cost proposals; (2)
determine whether ACS over or under-recovered indirect costs on each NSF award active
during the audit period, based on audit-determined indirect cost rates, and (3) to evaluate the
adequacy of ACS’s internal controls to administer, account for, and monitor indirect cost
charges to federal awards. To accomplish the objectives of the audit, we:

•       Conducted an on-site audit survey with sufficient observations, interviews, and
        examinations of documents to make an initial determination whether the maximum
        provisional rates were based on allowable indirect costs and whether controls to


1
  ACS’s Publications Division published a wide range of scientific journals, periodicals, and books. ACS’s Chemical
Abstracts Service Division abstracts and indexes chemistry-related research and provides access to the resulting
databases through both electronic and hard copy formats.
2
  ACS had eight other active NSF awards with a total value $1 million and claimed $152,553 of direct costs on these
eight awards during the two-year period ended December 31, 2001, but didn’t claim any indirect costs. Three of these
awards had a fixed dollar amount of indirect costs in lieu of applying the approved maximum provisional rate and
NSF did not fund indirect costs for the remaining five NSF awards.
                                                                                                                  3
      administer, account for, and monitor indirect costs are adequate to ensure compliance
      with federal cost principles and administrative requirements.

•     Prepared an audit planning document for OIG review and approval. The planning
      document included a description of ACS’s organizational structure and the process
      used to administer, account for, and monitor indirect cost charges to federally
      sponsored awards. As part of the planning process, we performed an assessment of
      audit risk and obtained an understanding of ACS’s control environment.

•     Prepared an internal control audit planning document for OIG review and approval.
      The internal control planning document included the proposed audit
      programs/procedures for testing the significant internal controls necessary to accurately
      administer, account for, and charge indirect cost charges to federally sponsored awards.
      As part of the internal control process, we assessed the areas of control environment,
      risk assessment, information and communication, monitoring and control activities.

•     Prepared a substantive audit testing planning document for OIG review and approval.
      The substantive planning document included the preliminary results of the internal
      control phase of the audit, including any findings and recommendations and the
      proposed audit program, which included the tests on compliance with applicable laws
      and regulations and substantive testing procedures to be applied to the indirect cost
      pools and the direct cost base.

•     Performed testing procedures so as to determine whether the indirect cost proposals
      and the resultant indirect cost rates comply with OMB Circulars A-110, Uniform
      Administrative Requirements for Grants and Agreements with Institutions of Higher
      Education, Hospitals and Other Nonprofit Organizations, and A-122, Cost Principles
      for Non-Profit Organizations.

       We conducted our audit in accordance with AICPA auditing standards generally
accepted in the United States of America, Comptroller General’s Government Auditing
Standards and included tests of the accounting records and other auditing procedures that we
considered necessary to fully address the audit objectives.




                                                                                             4
                                     SUMMARY OF AUDIT RESULTS

       We identified deficiencies in ACS’s calculation of its proposed indirect cost rates for
calendar years 2000 and 2001. The total audit adjustments and eliminations necessary to
correct inaccuracies in the rate calculations are $178,075 in total reductions to the indirect cost
pools and $4,754,709 in total additions to the direct cost bases for the two-year period. Our
recommended adjustments resulted in a slight decrease in recommended indirect cost rates:

                                     Calendar Proposed           Recommended
                                      Year      Rate                 Rate
                                      2000     XXXX                 48.74%
                                      2001     XXXX                 50.30%

       As the cognizant federal audit agency for indirect costs, NSF is responsible for
negotiating and approving ACS’ indirect cost rates for all federal agencies. On March 13,
2000, NSF approved a maximum provisional rate of 42 percent that began on January 1, 2000,
until amended. NSF has not approved a new indirect cost rate subsequent to this agreement.
Our audit adjustments could potentially impact ACS’s other federal awards with the
Department of Energy, Environmental Protection Agency and National Aeronautics and Space
Administration.3

       During the two-year audit period, ACS had one active NSF award with a maximum
provisional indirect cost rate. The award letter for this award stated that the amount granted
included an indirect cost allowance at a maximum provisional rate of 12.84 percent.
Therefore, we used this rate to calculate maximum allowable indirect costs for this award.
See Schedule A on page 19 for Schedule of Over/(Under) Recovered Indirect Costs. As a
result of ACS utilizing a billing rate less than the maximum provisional indirect cost rate
included in the award letter, ACS has not over-charged indirect costs on its NSF award active
during these two years.

       We also believe that the deficiencies and internal control weaknesses cited in our
report could affect the reliability of ACS cost information that NSF would use to establish
future ACS indirect cost rates. We found the following instances of noncompliance and
internal control deficiencies in ACS’ procedures to administer, account for, and monitor its
indirect cost rates.

Material Non-Compliance

        OMB Circular A-122 requires direct costs be allocated a portion of the organization's
indirect costs even though some direct costs are unallowable for purposes of computing
charges to federal awards. However, ACS incorrectly excluded unallowable food and catering
costs from the direct cost bases, which resulted in ACS overstating it’s proposed indirect cost
rates. These unallowable costs totaled $2,415,477 and $2,339,232 for 2000 and 2001,


3
    ACS charged $131,046 in indirect costs to other federal awards during fiscal years 2000 and 2001.
                                                                                                        5
respectively. The incorrect exclusions occurred because the ACS staff believed that costs
identified as unallowable should be excluded from the direct cost bases.

Immaterial Non-Compliance

       OMB Circular A-110 requires that accounting records be supported by source
documentation, however ACS could not locate travel expense reports, hotel and transportation
receipts, or other detailed source documentation to support senior management’s travel costs
included in the indirect cost pools. As a result, adjustments were made to reduce indirect
costs: $68,563 out of $213,524 audited for 2000 and $109,512 out of $375,918 audited for
2001. This occurred because ACS senior management were not aware of the federal
requirements to obtain and maintain source documentation (receipts) for their travel expenses
charged to federal awards as indirect costs.

Internal Control Weakness

        OMB Circular A-122 requires that actual labor charges be supported by personnel
activity reports for employees who work on more than one activity. However, ACS did not
require its employees to record actual hours worked on activities and instead only uses a
system to record employee time and attendance. ACS claimed that the reconciliation of
personnel activity reports to the general ledger was excessively time consuming and costly,
and so implemented an unwritten policy to use consultants for performance of direct labor as
deemed necessary on future federal awards. We confirmed that ACS did not charge direct
labor on federal awards and did not charge any employees time between indirect and direct
activities during the two-year audit period. Nonetheless, the current time allocation system at
ACS is not adequate as demonstrated by the fact that we found nine instances where ACS
allocated employees’ time between several direct (non-federal) cost centers without use of a
personnel activity report or other written time allocation plan.

        To address the compliance deficiencies and internal control weakness, we recommend
that the Directors of NSF’s Division of Institution and Award Support (DIAS) and the
Division of Grants and Agreements (DGA) require that ACS develop and implement written
policies and procedures that address: (1) development of direct cost bases in accordance with
OMB requirements, especially the requirement that unallowable costs be included in the direct
cost bases so indirect costs are correctly allocated to direct activities; (2) the adequacy and
retention of original supporting documentation for all travel costs charged directly or
indirectly to federal awards; and (3) the lack of time and effort by ensuring that ACS will not
propose or charge direct labor, or allocate indirect labor charges for employees whose time are
split between direct and indirect activities, to any federal awards until such time that its labor
accounting system meets the requirements of OMB Circular A-122.                  In addition, we
recommend that DIAS and DGA formalize the understanding with ACS that labor costs are
not proposed or charged for future NSF awards until ACS implements a timekeeping system
that satisfies the requirements as set out by OMB.




                                                                                                6
Summary of Auditee’s Response

       With respect to developing its direct costs bases in compliance with OMB Circular
A-122, ACS concurs with the finding and has indicated it will revise its written policies and
procedures to address the requirement that unallowable costs be included in the direct cost
bases so indirect costs are correctly allocated to direct activities.

        With respect to ensuring that its travel accounting records are supported by source
documentation, ACS indicated it has travel policies and procedures that require that all travel
costs are appropriately documented, especially for senior management. In late 2000 it
implemented a document imaging system and believes the documentation supporting the
travel costs questioned were inadvertently destroyed during the implementation process.

        With respect to its lack of an adequate accounting system, ACS concurs with the
audit’s recommendations and agrees to document its policies and procedures to neither
propose nor charge direct or indirect labor to any federal awards. ACS also agrees to
formalize the understanding it has with NSF that ACS will not propose or charge labor costs
to future NSF awards until such time as the ACS and NSF decide otherwise, and ACS’ labor
accounting system meets the requirements of OMB Circular A-122. However, ACS claims
that it does use PARs to support cost sharing agreements with the federal government but is
does not reconcile these PARs to the general ledger because of it’s decision not to charge any
labor directly to federal awards. ACS indicated it plans to upgrade its labor system in 2005 to
enable it to track actual time spent by staff on particular projects or grants.

Summary of Auditor’s Response to Auditee’s Response

        We agree with the plans forwarded by ACS to address the recommendations made in
this report, with the exception of their policy of claiming labor costs as cost sharing on federal
awards without an adequate personnel system that reconciles the PARs to actual salary costs
in the general ledger. OMB Circular A-122, attachment B, part 8, Compensation for personal
services, section m.4, requires that “salaries and wages of employees used in meeting cost
sharing or matching requirements on awards must be supported in the same manner as salaries
and wages claimed for reimbursement from awarding agencies.”




                                                                                                7
                                   EXIT CONFERENCE

       An exit conference was held on April 3, 2003 at the Auditee’s office located at 1155
Sixteenth Street, N.W., Washington, District of Columbia. The findings on compliance and
internal control along with the adjustments, eliminations and exclusions related to the indirect
cost proposals were discussed by the following individuals.

For American Chemical Society:
 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

For M.D. Oppenheim & Company, P.C.:
XXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXX




                                                                                              8
         SECTION II

FINDINGS AND RECOMMENDATIONS




                               9
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

             INDEPENDENT AUDITORS' REPORT ON COMPLIANCE
                       AND INTERNAL CONTROL

We have audited the summary schedule of over/(under) recovered indirect costs
(Schedule A) and the schedules of indirect/direct costs (B-1 and B-2) which summarize the
indirect cost proposals prepared by the American Chemical Society for the years ended
December 31, 2000 and 2001, and have issued our report thereon dated April 3, 2003. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States and the National
Science Foundation Audit Guide (September 1996).

Compliance

As part of obtaining reasonable assurance about whether the American Chemical Society’s
financial schedules are free of material misstatement, we performed tests of its compliance
with certain provisions of laws, regulations, and policies, noncompliance with which could
have a direct and material effect on the determination of the financial schedules amounts.
However, providing an opinion on compliance with those provisions was not an objective of
our audit and, accordingly, we do not express such an opinion. The results of our tests
disclosed instances of noncompliance, as reported in the accompanying Findings and
Recommendations on Compliance and the adjustments and eliminations noted in Schedules
C-1 and C-2, that are required to be reported under Government Auditing Standards and the
National Science Foundation Audit Guide.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered the American Chemical Society’s
internal control over financial reporting in order to determine our auditing procedures for the
purpose of expressing our opinion on the financial schedules and not to provide assurance on
the internal control over financial reporting. However, we noted a matter involving internal
control over financial reporting and its operation that we consider to be a reportable
condition. Reportable conditions involve matters coming to our attention relating to


                                                                                            10
National Science Foundation
Office of Inspector General


significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect the American Chemical Society’s
ability to record, process, summarize and report financial data consistent with the assertions
of management in the financial schedules. The reportable condition noted is described in the
accompanying Finding and Recommendation on Internal Control.

A material weakness is a condition in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of the internal control over
financial reporting would not necessarily disclose all matters in the internal control that
might be reportable conditions and, accordingly, would not necessarily disclose all reportable
conditions that are also considered to be material weaknesses. However, we do not consider
the reportable condition described in finding 1 to be a material weakness.

This report is intended solely for the information and use of the American Chemical Society
and the National Science Foundation and is not intended to be and should not be used by
anyone other than these specified parties.




April 3, 2003




                                                                                           11
                             AMERICAN CHEMICAL SOCIETY
                        Findings and Recommendations on Compliance
                       For the years ended December 31, 2000 and 2001

                                       Material Deficiency

1. Unallowable Costs Excluded From Direct Cost Bases

       OMB Circular A-122, states that unallowable costs should be treated as direct costs
for purposes of determining indirect cost rates and be allocated their share of the
organization’s indirect costs if they represent activities which: (1) include the salaries of
personnel, (2) occupy space, and (3) benefit from the organization’s indirect costs. While
ACS correctly excluded the following unallocable or unallowable food and catering costs
from the indirect cost pools, ACS did not include these costs in the direct cost bases so they
could be allocated their fair share of indirect costs:

                               Fiscal Year           Food and Catering
                                  2000                  $ 2,415,477
                                  2001                    2,339,232
                                  Total                 $ 4,754,709

        We believe that food and catering costs at ACS derive a benefit from the
organization’s indirect costs. The food and catering attract their fair share of space
occupancy and utilities costs at on-site functions, as well as costs for administrative and
fiscal support necessary to procure and pay for these goods and services. Therefore, in
accordance with OMB Circular A-122, these costs should be treated as direct costs and be
included in the direct cost bases for the purposes of calculating indirect cost rates.

       ACS made the decision to exclude 100 percent of its food and catering costs from its
indirect cost pools because it determined that it was not cost effective to segregate
unallowable costs (e.g. alcohol) from this account. This decision led to exclusion of all food
and catering costs related to organizational functions from the indirect cost calculations. In
addition, ACS staff believed that costs identified as unallowable in the indirect cost pools
should also be excluded from the direct cost bases. The staff did not understand that when
unallowable costs are identified an analysis should be done to determine if these costs derive
a benefit from the organization’s indirect costs, and if they do, then to ensure the unallowable
items are included in the direct cost bases.

      As a result, the direct cost bases were understated by $4.7 million over two years.
The impact of this understatement on the proposed indirect cost rates for fiscal years 2000
and 2001 were overstatements of 1.90 percent and 1.68 percent, respectively.

Recommendation

        We recommend that the Directors of NSF’s DIAS and DGA require that ACS
develop written policies and procedures for developing its direct cost bases in accordance
with OMB Circular A-122 requirements, especially the requirement that unallowable costs
be included in the direct cost bases so indirect costs are correctly allocated to direct activities.

                                                                                                 12
Auditee’s Response

         The ACS agrees to revise its written policies and procedures for developing it direct
cost bases in accordance with the requirements of OMB Circular A-122. It will include food
and catering costs in its direct cost bases and will continue to do so going forward. The
ACS’s indirect cost rate proposal for 2003, which was submitted to the National Science
Foundation on September 1, 2004, complies with this agreement

Auditors’ Response to Auditee’s Response

          ACS’s proposed actions address the weaknesses noted. We recommend that the
Director’s of NSF’s DGA and DACS require that ACS provide NSF with documentation that
its policies and procedures have been revised and implemented.




                                                                                           13
                                   Immaterial Deficiency

2. Lack of Adequate Supporting Documentation for Management Travel

        OMB Circular A-110 requires that accounting records be supported by source
documentation. ACS could not locate travel expense reports, hotel and transportation
receipts or other detailed source documentation to support costs for some senior management
travel included in the indirect cost pools. Adjustments totaling $68,563 (out of $213,524
audited) and $109,512 (out of $375,918 audited) were made to reduce the indirect cost rates
for FY 2000 and FY 2001, respectively.

        ACS senior management was not aware of the federal requirement to obtain and
maintain source documentation (receipts) for travel expenses charged to federal awards as
indirect costs. In addition, senior management did not always adhere to the ACS travel
policy, which requires that employees submit itemized travel vouchers with original receipts.

        There was no material impact to the indirect cost rates for the two years audited.
However, as the cognizant federal agency for ACS, NSF needs to be aware of potential
future impact on indirect costs rates of inadequate supporting documentation of indirect
travel expenses.

Recommendation

       We recommend that the Directors of NSF’s DIAS and DGA direct ACS to develop
and implement policies and procedures to ensure all indirect travel costs charged to the
government, especially for senior management, are documented in accordance with the
requirements of OMB Circular A-110.

Auditee’s Response

        Late in 2000, the ACS modernized its operations by instituting a document imaging
system. The ACS acknowledges that, as a result of issues associated with the
implementation it failed to image some of its expense vouchers, which were destroyed before
this issue was discovered. The problems encountered with the move to document imaging
were resolved and quality control procedures were implemented.

       The ACS currently has, and did have during the period under audit, policies and
procedures in place to ensure all travel costs are appropriately documented. This holds true
whether the travel costs are for indirect or direct purposes or are for senior management or
staff. The ACS agrees to continue to follow these policies and procedures to ensure
continued compliance with OMB Circular A-110.

Auditors’ Response to Auditee’s Response

      The finding addresses the issue that senior management did not always adhere to the
ACS travel policy and not whether a policy existed at the time of the audit. In addition, 96
                                                                                          14
per cent ($66,110) of the travel costs questioned in 2000 were incurred between March and
August of that year, and 100 per cent ($109,563) of the travel costs questioned in 2001 were
incurred between March and September of that year. This raises doubt that the lack of
adequate documentation was due to the implementation of the new document imaging
system late in 2000. Travel policies and new systems cannot ensure these costs will be
adequately supported if senior management does not submit travel receipts in compliance
with its own policies and in compliance with federal standards. Therefore, we reiterate the
need for ACS to implement policies and procedures that ensure all indirect travel costs
charged to the government, especially for senior management, are documented in accordance
with the requirements of OMB Circular A-110.




                                                                                         15
                           AMERICAN CHEMICAL SOCIETY
                     Finding and Recommendation on Internal Control
                     For the Years ended December 31, 2000 and 2001

                                    Reportable Condition

1.     Inadequate Timekeeping System for Federal Awards

        According to OMB Circular A-122, Attachment B, Paragraph 7(m)(2), Personnel
Activity Reports (PARs) that reflect the distribution of the activities must be maintained for
each employee (both professionals and nonprofessionals) whose compensation is charged, in
whole or in part, directly to federal awards. In addition, these PARs must be maintained to
support the allocation of indirect costs when employees work on two or more activities or
functions (e.g., an employee engaged part-time in an indirect cost activity and part-time in a
direct cost function). These PARs must meet the following standards: (a) the reports must
reflect an after-the-fact determination of the actual activity of each employee (budget
estimates do not qualify as support for charges to awards); (b) each report must account for
the total activity for which employees are compensated; (c) the reports must be signed by the
individual employee or a responsible supervisory official having first hand knowledge of the
activities performed by the employee; and (d) the reports must be prepared at least monthly
and coincide with one or more pay periods.

        ACS currently does not have a personnel accounting system for charging labor to
activities including federal awards. Instead, ACS uses a payroll exception reporting system
to record employee time and attendance. A payroll exception reporting system is a system
that only records employees’ use of leave (i.e. annual, sick, or holiday) on timecards instead
of actual hours worked per day. Auditors, who prepared the ACS 1997 Single Audit report,
found that this timekeeping system was not adequate for tracking actual activity charged to
federal awards. The organization responded by implementing a two-tier timekeeping system
requiring charges to federal awards be supported by PARs each pay period. However, ACS
stopped using this system once it was decided the process of reconciling the PARs to the
general ledger was excessively time consuming and costly. Therefore, in FY 2000, ACS
informally decided to use consultants to perform any direct labor deemed necessary on future
federal awards.

       During the scope of our audit (fiscal years 2000 and 2001), we confirmed that ACS
did not charge direct labor to any federal awards and did not charge any employees time
between indirect and direct activities during the two-year audit period. However, we found
that ACS arbitrarily allocated nine employees’ time between more than one direct (non-
federal) cost center. Most employees are charged 100 percent to specific activities or
programs. The time allocation appeared to be determined by the employees’ supervisor
without the use of PARs or a written, documented allocation plan. This further demonstrates
the inadequacy of ACS’s time charging system.

       Because federal awards are a small part of the ACS organization, management
decided to not change its entire timekeeping system to address the unique timekeeping
requirements related to its federal awards. It should be also be noted that most NSF awards
made to ACS do not include any direct labor costs, for example in 2000 only one out of the
                                                                                         16
four active awards had direct labor awarded. This equated to only nine percent of the total
amount awarded was allocated as direct labor and related fringe benefit costs. Nonetheless,
because ACS does not have a written policy restricting its staff to charge direct labor to
federal awards, the possibility exists that ACS could in the future inadvertently charge labor
to NSF or other federal awards.

Recommendation

We recommend that the Directors of NSF’s DIAS and DGA require:

1. ACS to develop written policies and procedures that help ensure ACS will not propose or
   charge direct labor to any federal awards until such time that its labor accounting system
   meets the requirements of OMB Circular A-122;

2. ACS to develop written policies and procedures that help ensure ACS will not propose or
   charge to indirect cost pools any employees time that is allocated between indirect and
   direct activities until such time that its labor accounting system meets the requirements of
   OMB Circular A-122; and

3. Formalize the understanding between NSF and ACS that will not propose or charge labor
   costs to future NSF awards until ACS implements an acceptable timekeeping system. In
   addition, we recommend that NSF inform other federal agencies of ACS timekeeping
   deficiency.

Auditee’s Response

       In response to recommendations 1 and 2, ACS agrees to document its policies and
procedures to neither propose nor charge direct or indirect labor to any federal awards. It
also agrees to formalize the understanding it has with NSF that ACS will not propose or
charge labor costs to future NSF awards until such time as the ACS and NSF decide
otherwise and ACS’ labor accounting system meets the requirements of OMB Circular
A-122.

        Additionally, in its response to recommendation 1, the ACS response indicated that
while it does not charge direct labor to the federal government, it does use PARs to support
cost sharing agreements it has with the government. These PARs are not reconciled to actual
salaries in its general ledger because ACS views these costs as a contribution to its NSF
awards.

       In response to recommendation 3, the ACS acknowledged that its current personnel
accounting system does not have the capability of tracking actual hours charged to activities
in compliance with OMB Circular A-122. The ACS plans to upgrade its labor system in
2005 to enable it to track actual time spent by staff on particular projects or grants.




                                                                                            17
Auditors’ Response to Auditee’s Response

        ACS’ proposed actions address the weaknesses noted except for its policy to continue
to use PARs to support cost sharing agreements with the federal government. The use of
PARs for any costs claimed in support of federal awards must be supported by the personnel
accounting system, whether for direct or indirect labor or labor contributed to an award as
cost sharing. ACS’ view that cost sharing is a contribution to the government does not
exempt documentation supporting these costs from meeting federal standards. Specifically,
OMB Circular A-122, attachment B, part 8, Compensation for Personnel Services specifies,
in part, that “salaries and wages of employees used in meeting cost sharing or matching
requirements on awards must be supported in the same manner as salaries and wages claimed
for reimbursement from awarding agencies.”

       We recommend that the Director’s of NSF’s DIAS and DGA require that ACS
provide NSF with documentation that its policies and procedures have been revised and
implemented. In addition, ACS needs to ensure that labor contributed to federal awards as
cost sharing is supported by its personnel accounting system.




                                                                                         18
    SECTION III

FINANCIAL SCHEDULES




                      19
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                        INDEPENDENT AUDITORS' REPORT

We audited the indirect cost proposals submitted by the American Chemical Society that
were applicable to the National Science Foundation and other federal awards for the years
ended December 31, 2000 and 2001. These indirect cost proposals, as presented in the
schedules of indirect/direct costs (Schedules B-1 and B-2) and the summary schedule of
over/(under) recovered indirect costs (Schedule A), are the responsibility of the American
Chemical Society's management. Our responsibility is to express an opinion on Schedules
A, B-1, and B-2 based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America, Government Auditing Standards issued by the Comptroller
General of the United States, and the National Science Foundation Audit Guide (September
1996). Those standards and the National Science Foundation Audit Guide require that we
plan and perform the audit to obtain reasonable assurance about whether the financial
schedules are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial schedules. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial schedule presentation. We believe
our audit provides a reasonable basis for our opinion.

The accompanying financial schedules were prepared for the purpose of complying with the
requirements of the National Science Foundation Audit Guide as described in Note 1, and are
not intended to be a complete presentation of financial position in conformity with
accounting principles generally accepted in the United States of America.

In our opinion, the financial schedules referred to above present fairly, in all material
respects, the indirect cost proposals (Schedules B-1 and B-2) and the resultant over/(under)
recovered indirect costs (Schedule A) for the years ended December 31, 2000 and 2001, in
conformity with the National Science Foundation Audit Guide, NSF Grant Policy Manual,
and on the basis of accounting described in Note 1.


                                                                                         20
National Science Foundation
Office of Inspector General


In accordance with Government Auditing Standards, we have also issued our report dated
April 3, 2003 on our consideration of the American Chemical Society’s internal control over
financial reporting and on our tests of its compliance with laws and regulations. That report
is an integral part of an audit performed in accordance with Government Auditing Standards
and should be read in conjunction with this report in considering the results of our audit.

Schedules C-1 and C-2 contain indirect costs in the amount of XXXXX that are reductions to
the indirect costs proposed and XXXXX that are additions to the direct costs proposed for
the years ended December 31, 2000 and 2001. The National Science Foundation will make
the final determination, as to whether such costs are allowable or unallowable. The ultimate
outcome of this determination cannot presently be determined.

This report is intended solely for the information and use of the American Chemical Society
and the National Science Foundation and is not intended to be and should not be used by
anyone other than these specified parties.




April 3, 2003




                                                                                          21
                                                                       AMERICAN CHEMICAL
                                                                       SOC Recovered Indirect Costs on National Science
                                                 Schedule of Over or (Under)
                                                        i A       For the years ended December 31, 2001
                                                                      2000

                                                                                                                                                           Indirect Costs

                                                                                           Indirect Cost Rate                                              Allowed     Over/(Under)         Over/(Under)

                                           Indirect Cost Approved in Award                 Proposed/Audited                                               (Approved         Recovered       Recovered

      NSF Award                                                                 Year     Proposed Audited        Schedule       Claimed to                  Rate        Per Audited         Per Allowed       Comment/

        Number          Award Period           Cost Method         Rate (A)    Ended        Rate        Rate     Reference          NSF      Per Audit     x MTDC)             Rate             Rate           Notes



     DUE-0053250 09/01/00 - 08/31/02 Max Provisional                 12.84% 12/31/00        XXXX 48.73%             B-1a        $      -     $   27,051       7,128 $           (27,051 $         (7,128)
                                                                                                                                                                                )
                                           Max Provisional           12.84% 12/31/01        XXXX 50.29%             B-2a            23,594       92,513 $ 23,620                (68,919                (26)
                                                                                                                                                                                )

                                                                                                                  Subtotal          23,594 $ 119,564 $ 30,748 $                 (95,970 $         (7,154)       (B)
                                                                                                                                                                                )

     INT-9711279     06/01/97 - 12/31/01        Fixed Dollar                  12/31/00      XXXX                    B-1a               -0-          -0-          -0-                  -0-              -0-

                                                Fixed Dollar                  12/31/01      XXXX                    B-2a               -0-          -0-          -0-                  -0-              -0-


                                                                                                                  Subtotal             -0-          -0-          -0-                  -0-              -0-      (C)


     DUE-9752102 09/01/97 - 08/31/00            Fixed Dollar                  12/31/00      XXXX                    B-1a               -0-          -0-          -0-                  -0-              -0-      (D)


                                                                                                                    Total       $ 23,594     $ 119,564    $ 30,748     $       (95,970) $         (7,154)



     Comments/Not
     MTDC = Modified Total Direct Costs. (Total direct program costs less equipment, participant support costs and subcontract
     costs )
     (A) Maximum provisional rate subject to downward adjustment




                                                                                                                                                                                                                         Schedule A
     only
     (B) Indirect costs claimed based upon application of a 12.84% rate specified in the budget. It is subject to downward adjustment
     only
     (C) Fixed dollar amount of $3,000 for indirect costs in lieu of an indirect cost rate calculation. Total amount claimed 1997-
     1999
     (D) Fixed dollar amount of $61,586 for indirect costs in lieu of an indirect cost rate calculation. Total amount claimed
     1998 1999
22




           See accompanying notes to these financial schedules.
                                                 AMERICAN CHEMICAL SOCIETY
                                           Schedule of Proposed Indirect Cost Rate Calculation
                                                 For the year ended December 31, 2000
                                                                                                               XXXX
                                    XXXX XXXX       XXXXX         XXXXX          XXXXXX       XXXXX    XXXXX   XXXX
        XXXXXXXX          XXXXXXX     XXXX          XXXXXX       XXXXXXX         XXXXXX       XXXXXX   XXXXX   XXXXX
     XXXXXXXXXXXX                     XXXXXX
     XXXXXXXXXXXX                              X     XXXXXX
     XXXXXXXXXXX           XXXXXX     XXXXXX           XXXXX      XXXXXXX                                      XXXXXX
     XXXXXXXXXXXXX                    XXXXXX           XXXXX       XXXXXX          XXXXX                        XXXXX
                                                                                                               XXXXXX
     XXXXXXXXXXXX                     XXXXXX           XXXXX               0       XXXXX      XXXXXX                X
     XXXXXXXXXXXXXXX                   XXXXX           XXXXX      XXXXXXX        XXXXXXX           0       0
     XXXXXXXX
     XXXXXXXXXX           XXXXXXX               0            0             0              0        0       0
     XXXXXXXXXXX          XXXXXXX               0            0             0              0        0       0
     XXXXXXXXXXX           XXXXXX               0            0             0              0        0       0
                           XXXXXX      XXXXX           XXXXX         XXXXX         XXXXX       XXXXX       0

     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                             XXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                X
                                             XXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXX                      X
     XXXXXXXXXXXXXXXXXXXXXXXXX                XXXX
                                                                               XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXX                              XXXXXX                     XXXXXXXXXXXXXXXXXXXXXX     XXXXXX
     XXXXXXXXXXXXX                                   XXXXXX                     XXXXXXXXXXXXXXXX           XXXXXX
                                                                                XXXXXXXXXXXXXXXXXXX        XXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                       XXXXXXXXXXXXXXXX           XXXXXX
     XXXXXXXXXXXXXXXX             XXXXXXXX                                                 XXXXXXXXXXXXXX  XXXXXX
     XXXXXXXXXXXXXX                 XXXXXX
     XXXXXXXX                     XXXXXXXX                                     XXXXXXXXXXX                     XXXXXX
     XXXXXXXXXXXXXXXX             XXXXXXXX                                     XXXXXXXXXXXXXXXXXX              XXXXXX
                                                                                              XXXXXXXXXXXXXX    XXXX
          XXXXXXXXXX       XXXXXX   XXXX
        XXXXXXXXXXXX      XXXXXXX   XXXX
                       XXXXXXXX




                                                                                                                        Schedule B-1a
     XXXXXXXXXXXXX                   XXXXXXX
     XXXXXXXXXXXXXXXXXXXX           XXXXXXXX
23
                                                AMERICAN CHEMICAL SOCIETY
                                    Schedule of OIG Recommended Indirect Cost Rate Calculation
                                                For the year ended December 31, 2000
         XXXXXX         XXXXXXXX    XXXXXXXX     XXXXXXX     XXXXXXXX      XXXXXXXX    XXXXXX    XXXXX   XXXXXX
                                     XXXXXX       XXXX          XX           XXXX       XXXX     XXXXX   XXXXX
     XXXXXXXXXXXX                     XXXXXX
     XXXXXXXXXX                             XX     XXXXXX
     XXXXXXXXXX         XXXXXXXX       XXXXXX      XXXXXX       XXXXXX                                    XXXXX
     XXXXXXXXXXXX                      XXXXXX      XXXXXX    XXXXXXXX         XXXXX                       XXXXX
     XXXXXXXXXX                        XXXXXX      XXXXXX            XX      XXXXXX     XXXXX             XXXXX
     XXXXXXXXX                         XXXXXX     XXXXXXX        XXXXX        XXXXX         XX      XX
     XXXXXXXXX
     XXXXXXXX           XXXXXXXX            XX          XX           XX          XX         XX      XX
     XXXXXXXX                               XX          XX           XX          XX         XX      XX
     XXXXXX               XXXXXXX           XX          XX           XX          XX         XX      XX
                        XXXXXXXX       XXXXXX      XXXXXX       XXXXXX       XXXXXX    XXXXXX       XX

     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX          XXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXX                     XXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXX                     XXXX
                                                                          XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXX                            XXXXXX                  XXXXXXXXXXXXXX             XXXXXX
     XXXXXXXXXXXXX                                 XXXXXX                  XXXXXXXXXXXXXXXX           XXXXXX
                                                                           XXXXXXXXXXXXXXXXXXX        XXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                  XXXXXXXXXXXXXXXX           XXXXXX
                                                                                                           X
     XXXXXXXXXXXXXXXX               XXXXXXXX                                            XXXXXXXXXXXX  XXXXXX
     XXXXXXXXXXXXXX                   XXXXXX
     XXXXXXXX                       XXXXXXXX                              XXXXXXXXXXX                    XXXXXX
     XXXXXXXXXXXXXXXX               XXXXXXXX                              XXXXXXXXXXXXXXXXXX             XXXXXX
                                                                                XXXXXXXXXXXXXXXXXX         XXXX
          XXXXXXXXXX       XXXXXX   XX
        XXXXXXXXXXXX      XXXXXXX   XXX
                       XXXXXXXX
     XXXXXXXXXXXXXX                   XXXXXXX
     XXXXXXXXXXXXXXXXXXXX              XXXXXX




                                                                                                                  Schedule B-1b
24
                                                AMERICAN CHEMICAL SOCIETY
                                          Schedule of Proposed Indirect Cost Rate Calculation
                                                For the year ended December 31, 2001
                                                                                                            XXXXXX
                                    XXXXXXXX       XXXXXXX      XXXXXXXX      XXXXXXXX     XXXXXX   XXXXX    XXXX
           XXXX           XXXXXX      XXXX           XXX           X             XX         XXX      XXX
     XXXXXXXXXXXX                     XXXXXX
     XXXXXXXXXX                              XX           XX
     XXXXXXXXXX         XXXXXXXX          XXXXX       XXXXX       XXXXXX                                    XXXXXX
     XXXXXXXXXXXX                         XXXXX       XXXXX     XXXXXXXX        XXXXXX                      13,244,950
     XXXXXXXXXX                           XXXXX       XXXXX              0      XXXXXX     XXXXXX           XXXXXX
     XXXXXXXXX                        XXXXXX        XXXXXX        XXXXXX        XXXXXX          0       0
     XXXXXXXXX
     XXXXXXXX           XXXXXXXX               0           0             0             0        0       0
     XXXXXXXX             XXXXXX               0           0             0             0        0       0
     XXXXXX               XXXXXX               0           0             0             0        0       0
                          XXXXXXX     XXXXXX        XXXXXX        XXXXXX        XXXXXX     XXXXXX       0

     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXX             XXXXXX
     XXXXXXXXXXXXXXXXXXXXXX                         XXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXX                        XXX
                                                                             XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXX                                XXXX                   XXXXXXXXXXXXXX             XXXXXX
     XXXXXXXXXXXX                                      XXXX                   XXXXXXXXXXXXXXXX            XXXXX
                                                                              XXXXXXXXXXXXXXXXXXX         XXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                     XXXXXXXXXXXXXXXX           XXXXXX
                                                                                                              X
     XXXXXXXXXXXXXXXX               XXXXXXXX                                             XXXXXXXXXXXXXX  XXXXXX
     XXXXXXXXXXXX                    XXXXXXX
     XXXXXXXX                         XXXXXX                                 XXXXXXXXXXX                    XXXXXX
     XXXXXXXXXXXXXXXX               XXXXXXXX                                 XXXXXXXXXXXXXXXXXX             XXXXXX
                                                                                       XXXXXXXXXXXXXX         XXXX
         XXXXXXXXXXX         XXXX   XX
        XXXXXXXXXXXX       XXXXXX   XXX
                         XXXXXX
     XXXXXXXXXXXXX                    XXXXXX




                                                                                                                         Schedule B-2a
     XXXXXXXXXXXXXXXXXXXX               XXXX
25
                                            AMERICAN CHEMICAL SOCIETY
                                Schedule of OIG Recommended Indirect Cost Rate Calculation
                                            For the year ended December 31, 2001


                                XXXXXXXX      XXXXXXX    XXXXXXXX      XXXXXXXX    XXXXXX    XXXXX   XXXXXX
       XXXX           XXXXXX      XXXX          XXX         X             XX        XXX       XXX     XXXX
 XXXXXXXXXXX                       XXXXX
 XXXXXXXXXX                             XX      XXXXX
 XXXXXXXXX          XXXXXXXX           XXXX    XXXXXX        XXXXX                                    XXXXX
 XXXXXXXXXX                        XXXXXX      XXXXXX       XXXXXX        XXXXX                       XXXXX
 XXXXXXXXX                         XXXXXX      XXXXXX            XX       XXXXX     XXXXX              XXXX
 XXXXXXXX                       XXXXXXXX        XXXXX        XXXXX        XXXXX         XX      XX
 XXXXXXXX
 XXXXXXX               XXXXXX           XX         XX            XX          XX         XX      XX
 XXXXXXXX                               XX       XXXX            XX          XX         XX      XX
 XXXXX                 XXXXXX           XX         XX            XX          XX         XX      XX
                       XXXXXX       XXXXX      XXXXXX       XXXXXX       XXXXXX    XXXXXX       XX

 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX          XXXXXXX
 XXXXXXXXXXXXXXXXXXXXXXXX                     XXXXXXX
 XXXXXXXXXXXXXXXXXXXXXXXXX                     XXXX
                                                                      XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
 XXXXXXXXXXXXXXXXXX                            XXXXXX                  XXXXXXXXXXXXXX             XXXXXX
 XXXXXXXXXXXXX                                 XXXXXX                  XXXXXXXXXXXXXXXX           XXXXXX
                                                                       XXXXXXXXXXXXXXXXXXX        XXXXXX
 XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                  XXXXXXXXXXXXXXXX              XXXX
 XXXXXXXXXXXXXXXX             XXXXXXXX                                            XXXXXXXXXXXXXX  XXXXXX
 XXXXXXXXXXXXXX                 XXXXXX
 XXXXXXXX                     XXXXXXXX                                 XXXXXXXXXXX                   XXXXXX
 XXXXXXXXXXXXXXXX             XXXXXXXX                                 XXXXXXXXXXXXXXXXXX            XXXXXX
                                                                             XXXXXXXXXXXXXXXXXX        XXXX
       XXXXXXXXXX     XXXXXX    XXXX
     XXXXXXXXXXXX   XXXXXXXX    XXXX
                    XXXXXXXX
 XXXXXXXXXXXXXX                   XXXXXXX




                                                                                                              Schedule B-2b
 XXXXXXXXXXXXXXXXXXXX              XXXXXX
26
                                                                                    Schedule C

                           AMERICAN CHEMICAL SOCIETY
                     Schedule of Auditors’ Adjustments and Eliminations
                     For the years ended December 31, 2000 and 2001

The amounts as proposed by ACS in their indirect cost proposals for the years ended
December 31, 2000 and 2001 (Schedules B-1 and B-2) required adjustments and
eliminations to the indirect cost or direct cost pools. These adjustments and/or eliminations
are presented in Schedules B-1 and B-2. On the following pages in Schedules C-1 and C-2
these adjustments and/or eliminations are detailed. Presented below is a brief summary of
the type of adjustment and/or elimination along with the relevant criteria.

       Adjustment and/or Elimination                                Criteria

AGU did not provide adequate source OMB Circular A-110, Subpart C, paragraph
documentation (e.g. travel expenses reports, 21 (b) (7) requires accounting records be
hotel and transportation receipts) to support supported by source documentation.
senior management’s travel costs included in
the indirect cost pools.

Unallocable or unallowable food and              OMB Circular A-122, Attachment A, Section
catering costs were removed from both the        B, paragraph 3 states that unallowable costs
indirect pools and direct cost bases. Food       should be treated as direct costs for purposes
and catering costs attract their fair share of   of determining indirect cost rates and be
space occupancy, utilities, and administrative   allocated their fair share of the
expenses and should be treated as direct costs   organizations’ indirect costs if they represent
in the direct cost bases.                        activities which: (1) include the salaries of
                                                 personnel, (2) occupy space, and (3) benefit
                                                 from the organization’s indirect costs.




                                                                                             27
                                                                            Schedule C-1
                          AMERICAN CHEMICAL SOCIETY
           Schedule of Auditors’ Adjustments and Eliminations – Indirect Costs
                    For the years ended December 31, 2000 and 2001


     Adjustment and Elimination                     (A)
            Explanation                            CMP                     Total

2000
Inadequate source documentation for
  travel costs.                                 XXXXXXX                XXXXXXX

2001
Inadequate source documentation for
  travel costs.                                 XXXXXXX                XXXXXXX

  Total                                          XXXXXX                  XXXXXX

(A) Adjustments to WMP and Education Division based on allocation of CMP indirect
    costs.




                                                                                     28
                                                                            Schedule C-2
                          AMERICAN CHEMICAL SOCIETY
            Schedule of Auditors’ Adjustments and Eliminations – Direct Costs
                    For the years ended December 31, 2000 and 2001


Adjustment and Elimination               (A)             Education
       Explanation                      CMP              Division               Total

2000
Food and catering costs were
 erroneously excluded from
 the direct cost bases.               XXXXXX            XXXXXX              XXXXXX

2001
Food and catering costs were
 erroneously excluded from
 the direct cost bases.             XXXXXXX             XXXXXX            XXXXXXX

  Total                               XXXXXX            XXXXXX              XXXXXX

(A) Adjustments to WMP direct costs based on adjustment to CMP direct cost base.




                                                                                        29
                            AMERICAN CHEMICAL SOCIETY
                                Notes to Financial Schedules
                      For the years ended December 31, 2000 and 2001


1. Summary of Significant Accounting Policies:

      The accompanying financial schedules have been prepared in conformity with NSF
instructions. Schedules B-1 and B-2 have been prepared from the indirect cost proposals
prepared by the American Chemical Society, and Schedule A has been prepared based upon
the results of the audit of Schedules B-1 and B-2. The schedules do not present the complete
financial position of the American Chemical Society. In accordance with NSF instructions,
there are no schedules of financial position, statement of activities or statement of cash flows.

2.   Income Taxes:

      The American Chemical Society is a private nonprofit corporation, incorporated under
the laws of the Commonwealth of Massachusetts. The American Chemical Society is
exempt from income taxes under Section 501(c)(3) of the Internal Revenue Code.




                                                                                              30
        SECTION IV

SUPPLEMENTARY INFORMATION




                            31
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


 INDEPENDENT AUDITORS’ REPORT ON SUPPLEMENTARY INFORMATION

Our report on our audit of the schedule of over/(under) recovered indirect costs and
schedules of indirect and direct costs (the basic financial schedules) of The American
Chemical Society for the years ended December 31, 2000 and 2001, appears in Schedules A
and Schedules B-1 and B-2. The audit was made for the purpose of forming an opinion on
the basic financial schedules taken as a whole. The supplementary information presented in
Schedules D-1 to D-3 and Schedule E are presented for purposes of supplementary analysis
and are not a required part of the basic financial schedules. The supplementary information
has not been subjected to the auditing procedures applied in the audit of the basic financial
schedules and, accordingly, we express no opinion on them.




April 3, 2003




                                                                                          32
                                                                                   Schedule D-1

                 National Science Foundation Award Number DUE-0053250
                                        Awarded To
                                 American Chemical Society
                 Detailed Schedule of Over/(Under) Recovered Indirect Costs
                 For the Period September 1, 2000 to December 31, 2001 (A)
                                          Interim
                                        (Unaudited)

                   Cost Category                           12/31/00               12/31/01
Personnel costs                                        $              -       $              -
Fringe Benefits
Travel/Domestic                                                  XXX                   XXXX
Material and Supplies                                            XX                    XXXX
Equipment
Consultants                                                     XXXX                   XXXX
Subcontracts                                                        -                  XXXX
Honoraria                                                        XXX                   XXXX
Travel Non Society Staff                                        XXXX                   XXXX
Meals & Entertainment                                            XXX                    XXX
Other Expenses                                                    XX                   XXXX

Total direct costs                                              XXXX                 XXXX           (B)
Exclusions:
     Participant support                                                  -           XXXX

Modified total direct cost base                                 XXXX                 XXXX

Final audited indirect cost rate                                48.73%                 50.30%

Calculated allowable indirect costs                             XXXX                   XXXX
Less: Adjustment for indirect costs in excess of
the maximum provision rate of 12.84% of MTDC                   XXXX                   XXXX

Indirect costs as adjusted                                       XXX                   XXXX

Claimed indirect costs (C)                                                X            XXXX         (B)

Over/(under) recovered indirect costs                  $        (7,128)       $              (26)

(A) The award period is September 1, 2000 to August 31, 2002.

(B) The total direct costs plus the claimed indirect costs agrees with the cumulative net
    disbursements reported on the FCTR as of the year ended 12/31/01.

(C) Indirect costs were claimed based upon the application of the rate specified in the budget.
    It is a maximum provisional rate of 12.84% which is subject to downward adjustment only.


See accompanying independent auditors’ report.                                               33
                                                                                                Schedule D-2

                  National Science Foundation Award Number INT-9711279
                                          Awarded To
                                  American Chemical Society
                  Detailed Schedule of Over/(Under) Recovered Indirect Costs
                  For the Period of January 1, 2000 to December 31, 2001 (A)
                                              Final
                                          (Unaudited)

                                                                       Year Ended
                    Cost Category                              12/31/00           12/31/01
Personnel costs                                              $         X-      $          X
                                                                                          -
Fringe Benefits
Travel/Domestic                                                                                 XXX
Material and Supplies
Equipment
Subcontracts
Travel Foreign                                                                               XX
Travel Non Society Staff                                                                   XXXX
Research & Travel Grants                                               XXX                  XXX
Meals & Entertainment                                                                         X
                                                                                              XX
Fellowships & Scholarships                                             XXX                  XXX
Other Expenses                                                          XX

Total direct costs                                                     XXX                 XXXX          (B)
Exclusions:
      Subcontracts
      Participant support costs                                       XXXX                 XXXX

Modified total direct cost base                                           XX                       XX

Final audited indirect cost rate (C)

Calculated allowable indirect costs                                        XX                      XX
Claimed indirect costs                                                     XX                      XX    (B)

Over/(under) recovered indirect costs                                      XX                      XX

(A) The award period is June 1, 1997 to December 31, 2001.

(B)   The total direct costs plus the claimed indirect costs agrees with the cumulative net
      disbursements reported on the FCTR as of the years ended 12/31/00 and 12/31/01.



(C)   The grant has a fixed dollar amount of $3,000 for indirect costs in lieu of an indirect
      cost rate calculation. One thousand dollars was claimed in each year 1997-1999.
      No amounts were claimed in 2000 and 2001.
See accompanying independent auditors’ report.                                                          34
                                                                                     Schedule D-3

                 National Science Foundation Award Number DUE-9752102
                                        Awarded To
                                American Chemical Society
                 Detailed Schedule of Over/(Under) Recovered Indirect Costs
                   For the Period January 1, 2000 to August 31, 2000 (A)
                                            Final
                                        (Unaudited)

                                                                       Period Ended
                    Cost Category                                         8/31/00
Personnel costs                                                    $               X
                                                                                   -
Fringe Benefits
Travel/Domestic
Material and Supplies                                                                XX
Equipment
Subcontracts                                                                       XXX
Travel Non Society Staff
Meals & Entertainment
Other Expenses

Total direct costs                                                                 XXX       (B)
Exclusions:
       Subcontracts                                                               XXXX
       Equipment

Modified total direct cost base                                                      XX

Final audited indirect cost rate (C)

Calculated allowable indirect costs                                                  XX
Claimed indirect costs                                                               XX      (B)

Over/(under) recovered indirect costs                                                XX


(A)    The award period is September 1, 1997 to August 31, 2000.

(B)    The total direct costs plus the claimed indirect costs agrees withthe cumulativenet
       disbursements reported on the FCTR as of the year ended 12/31/00.

(C)    The grant has a fixeddollar amountof $61,586 for indirectcosts in lieuof an indirect
       cost rate calculation. Total allowable indirect costs were claimed in 1998 and 1999.




See accompanying independent auditors’ report.                                               35
                                                                                                    Schedule E

                                AMERICAN CHEMICAL SOCIETY
                         Listing of NSF Awards Active During Audit Period
                                 Not Affected by Indirect Cost Audit
                                            (Unaudited)


There were 6 active NSF awards during the years ended December 31, 2000 and 2001 that
did not include indirect costs incurred or billed to NSF on an FCTR. These grants had no
indirect costs budgeted/approved.

                                                ACS Award
             NSF Award Number                    Reference                    Award Period
                 CTS-0121728                        60490                 07/01/01 – 12/31/01
                 INT-0117084                        91728                 09/01/01 – 08/31/03
                 INT-01077644                       91729                 06/01/01 – 05/31/02
                 CHE-9820819                        91735                 03/15/99 – 08/31/00
                 INT-0072933                        91736                 06/01/00 – 05/31/01
                 CHE-0127333                        91906                 09/01/01 – 08/31/02




4
 In lieu of indirect costs, NSF has authorized administrative fee of $50 per participant for this award. The total
administrative fee authorized by NSF was $200. As of December 31, 2001, ACS has not billed administrative fee
on this award to NSF.
See accompanying independent auditors’ report.                                                            36
    SECTION V


AWARDEE’S RESPONSE




                     37
39
40
41
42
